Feds: La. Man Stole Late Mom's Benefit Money
Associated Press

Posted on September 2, 2011 at 7:40 AM

Updated Friday, Sep 2 at 7:40 AM

NEW ORLEANS (AP) — Federal prosecutors have filed a theft charge against a New
Orleans man accused of collecting his mother's Social Security benefits for 26 years
after her death.

A court filing Thursday charges 65-year-old Bertrand R. Taylor with one count of theft of
government funds. He faces up to 10 years in prison if convicted of the charge.

Prosecutors say Taylor failed to inform the Social Security Administration that his
mother died in June 1984. He allegedly pocketed more than $175,000 of her monthly
benefits and spent the money on himself.

Source: http://www.wwltv.com/news/local/129042508.html
